Vincent W. Shack
64337 Doral Drive Desert Hot Springs, California 92240
Email: vgreengolf@aol.com Phone: (760) 218-9777
! USCA No. 20-55921

Vincent W. Shack
Petitioner
vs.
NBC UNIVERSAL MEDIA, LLC et al.
IMG WORLDWIDE, INC.
LADIES PROFESSIONAL GOLF ASSOCIATION,
SAMSUNG ELECTRONICS AMERICA INC.
Respondents
AFFIDAVIT OF SERVICE
I/an~

I HEREBY CERTIFY that on! March 8, 2021 three (3) copies of the writ of
cert and declaration IN SUPPORT OF THE PETITIONER in the abovecaptioned case were served as required by the UNITED STATES Supreme Court
Rule 29.5 (c) on the following:
IMG WORLDWIDE, INC.
NBC UNIVERSAL MEDIA, LLC
Robert B. Salley, Esq.
P.K. Schrieffer, Esq.
Tharpe & Howell
100 North Barranca Street Suite 1100
1520 Ventura Boulevard, Ninth Floor
West Covina, California 91791
Sherman Oaks, California 91403-3221
SAMSUNG ELECTRONICS AMERICA INC. LPGA
Robert B. Salley, Esq.j
Lawrence Ramsey, Esq.
Tharpe & Howell
\
Bowman and Brooks
ll 520l Venhira|BoYilevaf-1^2* floor
979 West 190th Street Suite 700
nan
CDak& CauWmaMl 403 -3221
Shes
is
! f

A

i Vincent W. Shack, pro se
Sworn to and subscribed before me this * March 8, 2021

'i

j

^ Please see attacked.
Please sec attached.

NOTARY REPUBLIC
My commission expires
_

7

Name: Vincent W. Shack
Email address: vgreengolf@aol.com
Address: 64337 Doral Drive
Desert Hot Springs, California 92240
Phone: (760)218-9777
Plaintiff in Pro Per
UNITED STATES SUPREME COURT

Vincent W. Shack
PLAINTIFF
vs.

) 1 USCA No. 20-55921
)

) DECLARATION OF VINCENT W. SHACK IN
) SUPPORT OF WRIT OF CERTORARI
)
)
)

DEFEND ANT(S),

) DATE: | March 8, 2021
)
)
)

I, Vincent Wayne Shack, makes the following declaration in support of writ
of certiorari.
1.1 am the petitioner in this action. I am over the age of 18.1 have personal
knowledge of the facts contained in this declaration, and if called upon to testily I
could and would testify competently as to the truth of the facts stated herein.
2. I make this declaration in support of my writ of certiorari.
3.1, Vincent W. Shack, a Pro Se Plaintiff in the civil matter of Vincent Shack v.
NBC et al.; whereas the civil complaint was transferred from California State
Court to the Federal Court 'in view' of elements of the defendant’s defense which
relied upon the 1st Amendment of the United States Constitution.

4. Only in complying with the ORDER of the Federal District Court did I serve the
Writ Cert to the United States Supreme Court.
5. The Supreme Court at that time 'stamped' the filing as received, then returned
with of the Writ Cert indicating the requirement to be reviewed by either the State
Supreme Court of California, or the 9th Circuit Federal Court of appeals.
6. On August 26th, the Writ Cert in its entirety was filed with the Federal Court of
Appeals; whereas the Federal District Court Order could be reviewed.
7. There was some time loss in the filing of the District Order with the Federal
court of Appeals due to only be able to communicate over the phone with staff in
several times working remotely.
8. The Circuit court clerk in one instance told me as the Appellant to file a notice
of appeal in the court where said case had originated.
9. Well in my case that was the California Superior court (it was about 5 weeks
into the filing with the state where was realized the state Superior court would not
be sending the case to the 9th Circuit Federal Court of Appeals.
10. By the time I had made all need corrections the time had run its course for
Review by the 9th Circuit Federal Court.
11. At the directive of the United States Supreme and fulfilling its requirement the
United States Court of Appeals for the Ninth Circuit provided a response. Please
see the ORDER from the court dating January 11,2021.

I declare under penalty or peijury under the laws of the State of California
that the foregoing is true and correct and that this Declaration is executed on
March 8, 2021 in Desert Hot Springs, California.

k
Vincent W. Shade
t\

JURAT
A notary public or other officer completing this certificate verifies only the
identity of the individual who signed the document to which this certificate
is attached, and not the truthfulness, accuracy, or validity of that document.

State of California
County of Riverside

Subscribed and sworn to (or affirmed) before me on this 9th day of March
20 21___ by

Vincent W. Shack

proved to me on the basis of satisfactory evidence to be the person(s) who appeared
before me.
Shawn D. Goff
COMM. 12303780
Signature

1/

(Seal)

£

NOTARY PUBUC-CALIFORNIA §
i~inw:v
RIVERSIDE COUNTY
My Comm. Expires September 1.2023
«VA

♦

♦

OPTIONAL INFORMATION

DESCRIPTION OF THE ATTACHED DOCUMENT
Petition for a Writ of Certiorari to order
(Title or description of attached document)

the U.S. Dist. Court for the Central Dist.CA
(Title or description of attached document continued)

Number of Pages J___Document Date 3/9/21

Additional information

2015 Version www.NotaryClasses.com 800-873-9865

INSTRUCTIONS
The wording of all Jurats completed in California after January 1, 2015 must be in the
form as set forth within this Jurat. There are no exceptions. If a Jurat to be completed
does not follow this form, the notary must correct the verbiage by using a jurat stamp
containing the correct wording or attaching a separate jurat form such as this one with
does contain the proper wording. In addition, the notary must require an oath or
affirmation from the document signer regarding the truthfulness of the contents of the
document The document must be signed AFTER the oath or affirmation. If the document
was previously signed, it must be re-signed in front of the notary public during the jurat
process.
• State and county information must be the state and county where the
document signer(s) personally appeared before the notary public.
• Date of notarization must be the date the signers) personally
appeared which must also be the same date the jurat process is
completed.
• Print the name(s) of the document signerfs) who personally appear at
the time of notarization.
• Signature of the notary public must match the signature on file with the
office of the county clerk.
• The notary seal impression must be clear and photographically
reproducible. Impression must not cover text or lines. If seal impression
smudges, re-seal if a sufficient area permits, otherwise complete a
different jurat form.
❖ Additional information Is not required but could help
to ensure this jurat is not misused or attached to a
different document.
❖ Indicate title or type of attached document, number of
pages and date.
• Securely attach this document to the signed document with a staple.

